APPENDIX 1
Published Opinion of the
Colorado Court of Appeals

24

I

i

W / ****-■- “•%

V..

&:
: %i

■

18CA0065 Peo v Tademy 07-09-2020
COLORADO COURT OF APPEALS

DATE FILED: July'9, 2020
CASE NUMBER: 2018CA65

Court of Appeals No. 18CA0065
City and County of Denver District Court No. 16CR3685
Honorable William D. Robbins, Jr., Judge

The People of the State of Colorado,
Plaintiff-Appellee,
v.
Brandon Lamar Tademy,
Defendant-Appellant.

JUDGMENT AFFIRMED
Division III
Opinion by JUDGE GROVE
Furman and Berger, JJ., concur

;

NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced July 9, 2020

1

!

i
i

;

Philip J. Weiser, Attorney General, Jennifer Carty, Assistant Attorney General,
Denver* Colorado, for Plaintiff-Appellee
Susan T. Almony, Alternate Defense Counsel, Broomfield, Colorado, for
Defendant-Appellant

!

1
I.

11

The defendant, Brandon Lamar Tademy, appeals the judgment

of conviction from a jury verdict finding him guilty of first degree
murder. We affirm.
I.
12

Background

This case arose from the shooting death of E.H. on November

3, 2015. At trial, the prosecution, largely through the testimony of
Tademy’s girlfriend, I.M., painted the following picture of the night
in question.
13

Outside of the Sand and Sage Motel on East Colfax Avenue,

Tademy spotted E.H. playing a game of dice with two other men.
Tademy recognized E.H.— nicknamed TM’ or Tittle Murder’ — as a
member of a gang rival to his own. According to I.M., a senior
member of E.H.’s gang nicknamed Big Murder’ had, sometime
previously, shot Tademy nine times. For this, Tademy sought
revenge on E.H.’s gang.
\

f4

Tademy called I.M. and told her to meet him at Colfax and

Verbena Street because he had “seen Little Murder.” I.M., who had
just gotten off work, settled her kids with a babysitter and drove to
meet Tademy. When she arrived, Tademy pointed out E.H. in front
of the motel. Tademy walked into an alley behind the motel and
l

told I.M. to follow him. He exited the alley onto Wabash Street,
where I.M. parked the car. Tademy then walked onto the motel
property and out of I.M. ’s line of sight. Moments later, I.M. heard a
gunshot. Tademy ran back to the car, jumped into the passenger
seat, and they left. As they drove, Tademy told I.M. to calm down
and drive carefully because “he got him.” On the way home, they
stopped at Tademy’s storage locker because Tademy wanted to stow
his gun, a .45 caliber pistol. After they arrived at home, Tademy
“tfook] off all his clothes and put[] them in a bag,” and “thr[e]w them
across the street.”
15

The People charged Tademy with one count of first degree

murder the following June. Later, during recorded phone calls that
Tademy made to I.M. from jail, I.M. told Tademy about surveillance
video that showed a man running up to her car. In response,
Tademy told I.M. that the police were trying to scare a confession
out of her, and that she should have lied. He then told I.M. to
remove guns and a safe from his storage unit. She did so.
f6

A jury found Tademy guilty of first degree murder and the trial

court sentenced him to life in prison without parole. Tademy now
appeals that conviction on three grounds. He contends that the
2

trial court erred by (1) denying his motion to sanction the
prosecution for destruction of evidence; (2) failing to provide a
cautionary instruction to the jury on uncorroborated accomplice
testimony; and (3) allowing the jury unrestricted access to certain
video and audio exhibits during deliberations. We will address each
issue in turn.
II.
17

Destruction of Evidence

Tademy contends that the trial court reversibly erred by

denying his motion to dismiss the case or reduce the charges
against him as a sanction for the loss of evidence collected by the
Denver Police Department (DPD). We disagree.
18

While investigating E.H.’s homicide, DPD Detective Michael

Martinez took statements from several people claiming to have
information about the case. His failure to preserve recordings of
two of those interviews — one with B.C. and one with K.S. — is at
issue here. Both interviews were video and audio recorded and
stored on compact discs. When it came time for the prosecution to
turn its evidence over to the defense, however, Martinez was unable
to locate either recording. They were thus never produced.

3

19

Before trial, Tademy filed a motion seeking sanctions for the

destruction of evidence, arguing that the prosecution had a duty to
preserve and produce the recordings because the evidence they
contained was potentially exculpatory. The prosecution’s failure to
do so, Tademy alleged, was a violation of his due process rights.
After a pretrial hearing on that and several other issues, the trial
court issued a written order imposing some sanctions but refusing
to dismiss the case or reduce the charges.
A.
110

Standard of Review

A trial court’s ruling on a discovery issue is reviewed for an

abuse of discretion. People v. Zadra, 2013 COA 140, f 14, affd,
2017 CO 18. However, we review a trial court’s application of the
governing legal standard de novo. In re Estate of Little, 2018 COA
169, 1 17. The prosecution’s handling of potentially exculpatory
evidence implicates a defendant’s due process rights under the
Fourteenth Amendment to the United States Constitution. Brady v.
Maryland, 373 U.S. 83, 85-86 (1963).
1 11

To establish that the prosecution’s failure to preserve

potentially exculpatory evidence was a violation of the defendant’s
due process rights, the defendant must prove that (1) the evidence
4

was destroyed by the prosecution; (2) the evidence possessed
exculpatory value that was apparent before it was destroyed1; and
(3) the defendant was unable to obtain comparable evidence by
other reasonably available means. People v. Greathouse, 742 P.2d
334, 337-38 (Colo. 1987); People v. Simpson, 93 P.3d 551, 556-57
(Colo. App. 2003). These are known as the Greathouse factors.
B.
U 12

B.C.’s Recorded Interview

When interviewed by Martinez, B.C. stated that, on the night

in question, he heard shots while he was driving nearby. He saw
someone, described as a “tall, thinly built, black male,” run to a
vehicle and get in, and then saw the vehicle pull alongside him in
traffic.
% 13

At the motions hearing, Martinez admitted that he was unable

to locate the recording of his interview with B.C., and thus he could
not produce it to the defense. After applying the Greathouse
factors, the trial court found that the prosecution’s failure to
produce this recording did not warrant any sanctions.

1 A claim that the evidence was only “potentially useful” does not
establish that the evidence had “apparent exculpatory value” when
it was destroyed. People v. Young, 2014 COA 169, | 69 (citation
omitted).
5

1 14

Although Tademy contends that the prosecution should have

been sanctioned for losing the recording of B.C.’s interview, he does
not assert either that the evidence in that recorded interview
possessed exculpatory value that was apparent before it was
destroyed, or that he was unable to obtain comparable evidence by
other reasonably available means. Greathouse, 742 P.2d at 337-38.
In fact, despite alluding to B.C.’s statement early in his briefs, he
does not provide any argument as to how the recording would have
been exculpatory, or why he could not obtain a similar recording
himself. In the absence of any substantive argument regarding
B.C.’s interview, we do not have enough before us to even consider
this issue on the merits, let alone conclude that the trial court
abused its discretion in not applying sanctions. See, e.g., People v.
Relaford, 2016 COA 99, f 70 n.2 (“We do not consider bare or
conclusory assertions presented without argument or
development.”).
C.

If 15

K.S.’s Recorded Interview

The recording of Detective Martinez’s interview with K.S. is a

different story. According to Martinez’s written synopsis of K.S.’s
interview, K.S. said he was at the scene of the murder before (but
6

not when) it happened, and also claimed that he heard who
committed the crime, a person known as “B.K.” He asserted that
the murder was connected to the dice game. At the time of the
interview, Martinez questioned K.S.’s credibility because, among
other things, K.S. claimed that he knew the victim, but could not
identify him from a photograph.
| 16

The trial court did not explicitly state in its written order that

the prosecution had violated Tademy’s due process rights by failing
to preserve and produce the recording of K.S.’s interview. It did,
however, find that Tademy had established each of the Greathouse
factors. We agree with this conclusion, although our reasoning
differs somewhat from that of the trial court. See People v.
Gonzales-Quevedo, 203 P.3d 609, 612 (Colo. App. 2008) (trial
court’s decision may be upheld on any ground supported by the
record).
f 17

In its written order, the trial court listed the Greathouse

factors as “(1) suppression or destruction of the evidence by the
prosecution; (2) the favorable character of the evidence for the
defense; and (3) the materiality of the evidence.” The court went on
to find that, with respect to the third factor, K.S.’s interview was
7

“material” because it related to identity, which was a material issue
for the trial.
f 18

To satisfy the third Greathouse factor, the evidence lost or

destroyed must be “constitutionally material.” Constitutional
materiality requires that the court determine whether the evidence
had apparent exculpatory value, and also whether it is “of such a
nature that the defendant would be unable to obtain comparable
evidence by other reasonably available means.” 742 P.2d at 338
(quoting California v. Trombetta, 467 U.S. 479, 489 (1984)). The
trial court’s order does not address whether it believed Tademy
could have obtained evidence comparable to K.S.’s recorded
interview through other reasonable means.
f 19

The defense did not gather any further evidence from K.S.

after it learned of his interview with Martinez. In the motion for
sanctions, defense counsel argued that this was because “memories
do not improve over time,” and because “all witnesses in this case
have been uncooperative with police.” Notably, the motion did not
argue that K.S.’s whereabouts were unknown, that K.S. had refused

8

to be interviewed, or that K.S. could not be subpoenaed to testify.2
We will not speculate as to why Tademy did not obtain a statement
from K.S., or why K.S. was not called as a witness, because even if
he could not have obtained similar evidence through other
reasonable means — thus satisfying the “constitutionally material”
requirement of the third Greathouse factor — the trial court issued
an appropriate sanction that quelled any due process concerns.
1.
f 20

Applicable Law

The trial court has broad discretion in fashioning an

appropriate remedy to protect a defendant’s rights where a due
process violation has denied him access to evidence. People ex rel.
Gallagher v. Dist. Court, 656 P.2d 1287, 1293 (Colo. 1983). In
selecting the remedy, “the court must weigh the significance of the
evidence lost or destroyed and the conduct of the prosecution which
led to its loss or destruction.” People v. Poole, 192 Colo. 56, 60, 555
P.2d 980, 983 (1976). We will reverse the trial court only if the
omitted evidence, when evaluated in the context of the entire

2 Without citation to the record or any further explanation, the
opening brief states that K.S. was unavailable to testify at trial.
9

record, creates a reasonable doubt that did not otherwise exist.
People v. Buckner, 228 P.3d 245, 251 (Colo. App. 2009).
2.
f 21

Sanction

The trial court saw fit to sanction the prosecution by granting

Tademy a continuance to investigate the issue further, and by
“allowing] the defense to elicit the hearsay statements of [K.S.] if he
is unavailable to testify, or to impeach him if [he] does testify
inconsistently with those statements.” Additionally, the trial court
decided that if such testimony were elicited at trial, it would
instruct the jury on the police department’s obligation to preserve
evidence, and its failure to do so here.
f 22

As stated above, in determining whether the sanction was an

abuse of the trial court’s discretion, we must consider the
significance of the evidence lost and the conduct of the prosecution
which led to losing the evidence. The trial court found that,
“although vague and incredible,” K.S.’s interview did “represent the
possibility of another suspect, which would be exculpatory to Mr.
Tademy.” Therefore, sanctions were in order. However, the trial
court did not believe that the conduct of the prosecution rose to the
level of bad faith, and thus dismissal was not warranted.
10

f 23

On appeal, Tademy argues that the proper sanction for the

destruction of this recording was dismissal of his case, because the
conduct of the police “which led to the loss or destruction of the
evidence suggests bad faith.” The People respond that, because
there was no finding of bad faith by the trial court, a continuance of
trial for the defendant to investigate any leads which may have
come from these revelations was appropriate. We agree. Martinez
admitted fault in losing the recordings and failing to produce the
“master witness list” on time,3 and Tademy has not provided any
specifics to buttress his allegation of bad faith. Additionally,
although the interview did hold exculpatory value, the trial court’s
remedy was suitable. The continuance allowed the defense time to
investigate further, and Martinez’s testimony (including the
opportunity for cross-examination) was a sufficient substitute for
the videotaped interview.
f 24

Indeed, during his cross-examination, Detective Martinez

detailed the relevant parts of his conversation with K.S. Defense

3 Tademy and the trial court both also noted that the prosecution
had failed to produce a “master witness list containing exculpatory
evidence of possible alternate suspects.”
11

counsel elicited K.S.’s statement that he had been playing dice with
the victim and one other individual — “B.K.,” whom K.S. believed to
be the shooter — on the day of the murder, and that K.S. believed
the dice game was the motive behind the shooting. Detective
Martinez’s recounting of his conversation with K.S. was brief, but it
included statements in which K.S. implicated other individuals in
the murder.
f 25

Additionally, the trial court issued the following instruction to

the juiy immediately after the testimony:
You just heard testimony from Detective
Martinez that the Denver Police Department
has destroyed evidence in this case by failing
to preserve the videotape statement of [K.S.]. If
this evidence was within the control of the
state but was not produced and the absence
was not sufficiently accounted for or explained,
then you may decide that the evidence would
have been favorable to Mr. Tademy.
Given that the trial court found no bad faith on the part of the
prosecution in losing this recorded interview, this sanction was
entirely appropriate. It is not at all clear that the video recording of
K.S.’s statement would have proved better for Tademy than
Martinez’s testimony, especially when that testimony is considered
in conjunction with the instruction and the fact that Tademy’s
12

counsel could not get information from K.S. otherwise. Thus, when
compared to the instruction and Detective Martinez’s testimony, the
recording of K.S.’s interview does not create a reasonable doubt in
the case where previously there was none. We find no abuse of
discretion in the trial court’s sanction. People v. Oram, 217 P.3d
883, 894 (Colo. App. 2009) (we presume that the jurors understood
and followed the court’s instructions), aff’d, 255 P.3d 1032 (Colo.
2011), as modified on denial of reh}g (Aug. 1, 2011).
in.
f 26

Accomplice Jury Instructions

Next, Tademy argues that because I.M. was the only witness

who named him as the perpetrator, the trial court should have
instructed the jury on the potential pitfalls of uncorroborated
accomplice testimony. We are not persuaded.
f 27

I.M. testified at length and in detail about the night of the

murder. Because she transported Tademy to the motel and acted
as his getaway driver, she was a textbook accomplice. Thus, at the
jury instruction conference, defense counsel asked the court to
include an instruction that tracked the language of Colorado Model
Criminal Jury Instruction D:05, which, among other things, directs
jurors considering uncorroborated accomplice testimony to “act
13

upon it with great caution. Give it careful examination in the light
of other evidence in the case.” COLJI-Crim. D:05 (2019). The trial
court declined to give the instruction, explaining that it believed
there was other evidence at trial that corroborated at least some of
I.M.’s testimony.
f 28

Tademy argues that this was error because, while there was

other evidence at trial suggesting that E.H. was murdered, there
was no evidence other than I.M.’s testimony identifying him
specifically as the perpetrator. See People v. Montoya, 942 P.2d
1287, 1293 (Colo. App. 1996) (holding that evidence to corroborate
an accomplice’s testimony “should identify the defendant and show
his connection with the offense, rather than merely tending to prove
that an offense has been committed”). The People respond that in
fact there were myriad other pieces of evidence linking Tademy to
the murder, and for that reason no instruction on uncorroborated
accomplice testimony was necessary.
A.
29

Standard of Review

We review jury instructions de novo to determine whether they

accurately inform the jury of the governing law. People v. Carter,
2015 COA 24M-2, If 39. We review the trial court’s decision to give
14

a particular jury instruction for abuse of discretion. Oram, 217
P.3d at 893. A trial court abuses its discretion only when its ruling
is manifestly arbitrary, unreasonable, or unfair. Kinney v. People,
187 P.3d 548, 558 (Colo. 2008).
f 30

An instruction that directs the jury to use caution when

considering accomplice testimony “is to be given only when the
prosecution’s case is based on uncorroborated testimony of an
accomplice.” People v. Petschow, 119 P.3d 495, 504 (Colo. App.
2004) (quoting Montoya, 942 P.2d at 1293). Evidence to
corroborate an accomplice may be direct or circumstantial.
Montoya, 942 P.2d at 1293. Accomplice testimony, however, need
not be corroborated in every part; corroboration of one element of
the testimony is sufficient. People v. Martinez, 187 Colo. 413, 531
P.2d 964 (1975). Furthermore, a confession or admission of the
accused is admissible to corroborate the testimony of an
accomplice. Montoya, 942 P.2d at 1293.
B.
% 31

Analysis

The People point to several pieces of testimony as

corroborating I.M.’s story, such as physical descriptions of the
shooter by other witnesses and as seen on surveillance cameras,
15

testimony by witness L.W., and recordings of the defendant’s jail
calls to I.M. and another female. While the corroborative value of
defendant’s jail calls was arguable, we conclude the surveillance
video — as well as the testimony of B.C. and L.W. — did corroborate
I.M.’s testimony. Among other things:
• I.M. testified that Tademy was wearing a dark, hooded
sweatshirt and sweatpants on the night in question.
o Surveillance video presented to the jury at trial showed
the shooter was wearing a dark, hooded sweatshirt
and sweatpants.
o B.C. testified that, after he heard gunshots while
driving nearby, he saw a “tall. . . lanky” man “wearing
a hoodie” run east on Colfax Avenue.
• B.C. further testified that he saw that same man get into
the passenger’s side of a “gray Chevy,” while another
witness, L.W., testified that, before going to meet Tademy at
the motel, I.M. had picked her up in a “silver-gray car.”
• I.M. testified that, after the shooting, she drove Tademy to
his storage locker so he could stow his .45-caliber pistol.
While no gun was ever recovered, police retrieved several
16

spent .45-caliber cartridge casings from the scene of the
murder.
• L.W. also stated that when I.M. called her that night, she
told L.W. that she needed a babysitter because Tademy had
“seen either the dude that shot him or put a hit out on
him[.]” I.M. explained in her testimony that the reason
Tademy called her that night was because he had seen
E.H., and a member of E.H.’s gang had shot Tademy.
• And, as discussed above, a confession of the accused can
serve to corroborate accomplice testimony. L.W. testified
that on the night in question she slept at I.M. and Tademy’s
home, and the following morning she overheard Tademy on
the phone with someone. Tademy told the individual over
the phone that he had “murked this dude” the night before,
which L.W. understood as code for “[mjurder, killing
someone[.]”
| 32

In short, several other pieces of evidence corroborated I.M.’s

testimony. Therefore, the trial court did not err by declining to
instruct the jury on uncorroborated accomplice testimony.

17

IV.
f 33

Use of Exhibits During Deliberations

Tademy contends that the trial court erred by giving the jury

unsupervised access to audiotapes of jail phone calls during
deliberations. We disagree.
A.
134

Recordings Reviewed by Jury

The jury began to deliberate on the fifth day of trial. After only

half an hour, the jury sent a question to the court, asking for a
“computer to review exhibits on compact discs [(CD)].” Several
exhibits had been admitted on CDs at trial: surveillance footage
from outside the motel on the night in question, Tademy’s interview
with police, and the recordings of Tademy’s jail phone calls. The
court and the parties had an extended colloquy about the most
appropriate way to handle the jury’s question. Ultimately, the court
decided to give the jury a computer to review the CD exhibits, but
only for one hour. It also instructed the jury as follows:
You may review the recorded exhibits;
however, you many not give undue weight or
influence to these or any other particular
exhibit. You must consider all the evidence or
lack of evidence as a whole.

18

B.
135

Standard of Review

The use of exhibits by juries during deliberations is within the

discretion of the trial court. Debella v. People, 233 P.3d 664, 667
(Colo. 2010). The trial court in criminal proceedings has an
obligation, much as it does with regard to the admissibility of
evidence generally, to ensure that juries are not permitted to use
exhibits in a manner that is unfairly prejudicial to a party. Frasco
v. People, 165 P.3d 701, 704 (Colo. 2007). “This obligation is
particularly pronounced with respect to jury access during
deliberations to portions of trial testimony . . . and to exhibits
substituting for trial testimony.” People v. Smalley, 2015 COA 140,
If 61 (citation omitted). A court abuses its discretion if its decision
is manifestly arbitraiy, unreasonable, or unfair, or is based on an
erroneous understanding or application of the law. Id. at Tf 59. A
court’s failure to exercise its discretion also constitutes an abuse of
discretion. DeBetta, 233 P.3d at 667.
C.
f 36

Analysis

Appellate courts in this state use a two-part inquiry to

determine whether a trial court abused its discretion in allowing or
not allowing jury access to exhibits during deliberations. A trial
19

court’s ultimate objective must be to assess whether the particular
exhibit will aid the jury in its proper consideration of the case, and,
even if so, whether a party will nevertheless be unfairly prejudiced
by the jury’s use of it. Id. at 668; Frasco, 165 P.3d at 704-05.
f 37

Perhaps most relevant to the case at hand is the division’s

opinion in Smalley, 2015 COA 140. There, as here, shortly after
beginning deliberations, the jury sent a note to the court stating
that it would like to “play back all 3 CDs of phone conversations.”4
Id. at Tf 52. The trial court sought input from the parties, and
decided to give the jury access to the CDs, along with a written,
limiting instruction. Id. at f 58. Notably, the court in Smalley did
not place any time restrictions on the jury’s access to the
recordings. In concluding that the trial court properly exercised its
discretion, the division highlighted the procedure the trial court
followed:

4 The parties have differing opinions as to whether the jail phone
calls at issue here are “testimonial” or “nontestimonial” evidence.
Generally, during deliberations, the jury should have access to any
nontestimonial exhibits admitted at trial, but courts must take
precautions when deliberating juries request access to exhibits that
are testimonial in nature, or “substitutfe] for trial testimony.” See
supra Part IV.B.
20

The court did not automatically provide the
jury with access to the recordings, but waited
until the jury requested them. After the jury’s
request, the court sought input from counsel.
Relying on DeBella, the court then assessed
(1) whether the exhibits would aid the jury and
(2) whether a party would nevertheless be
unfairly prejudiced. First, the court made a
specific finding that the recordings would aid
the jury in its proper consideration of the case.
Second, the court asked defense counsel to
articulate what prejudice might result from
providing access to those exhibits. Defense
counsel’s only stated concerns were that the
jury would focus on one piece of evidence to
the exclusion of other pieces of evidence and
listen to portions of the tape repeatedly. The
court addressed these concerns by crafting
language for a limiting instruction, which
defense counsel approved.
Id. at f 65 (citations omitted).
K 38

The analysis of the trial court and the arguments of counsel

were nearly identical here. As in DeBella and Smalley, the trial
court did not give the jury access to the CD evidence at the
beginning of deliberations, but instead waited until the jury
requested it. The trial court then accepted input from the parties
and applied the test from DeBella.
1 39

As to the first prong, the court found that “some of [the] jail

calls [were] difficult to hear and understand” and further that both

21

sides presented argument to the jury about what they believed was
said on the calls. The trial court concluded that having access to
this evidence would aid the jury in its deliberations, and we agree.
What was said on the calls was ultimately a question of fact for the
jury, and given that there was disagreement on this point, access to
the recording would have helped the jury resolve that dispute.
140

For prong two, the court sought “to minimize prejudice” by

only giving the computer to the jury for an hour, reasoning that this
would prevent the jury from “going over and over and over the . . .
tapes” and it would give them time to consider the other evidence.
The court also crafted a limiting instruction after discussion with
the parties. See supra Part IV.A.
1 41

These safeguards were sufficient to prevent the jury from

placing undue weight on the CD evidence in its deliberations.
Accordingly, the court's ruling was an appropriate exercise of its
discretion.
V.
1 42

Conclusion

We affirm the judgment.
JUDGE FURMAN and JUDGE BERGER concur.

22

(ffnurt of Appeals
STATE OF COLORADO
2 East 14th Avenue
Denver, CO 80203
(720) 625-5150
PAULINE BROCK
CLERK OF THE COURT

NOTICE CONCERNING ISSUANCE OF THE MANDATE
Pursuant to C.A.R. 41(b), the mandate of the Court of Appeals may issue forty-three
days after entry of the judgment. In worker's compensation and unemployment
insurance cases, the mandate of the Court of Appeals may issue thirty-one days after
entry of the judgment. Pursuant to C.A.R. 3.4(m), the mandate of the Court of Appeals
may issue twenty-nine days after the entry of the judgment in appeals from
proceedings in dependency or neglect.
Filing of a Petition for Rehearing, within the time permitted by C.A.R. 40, will stay the
mandate until the court has ruled on the petition. Filing a Petition for Writ of Certiorari
with the Supreme Court, within the time permitted by C.A.R. 52(b), will also stay the
mandate until the Supreme Court has ruled on the Petition.

BY THE COURT:

Steven L. Bernard
Chief Judge

DATED: March 5,2020
Notice to self-representedparties: The Colorado Bar Association
providesfree volunteer attorneys in a small number ofappellate cases. If
you are representing yourselfand meet the CBA low income
qualifications, you may apply to the CBA to see ifyour case may be
chosen for a free lawyer. Self-representedparties who are interested
should visit the Appellate Pro Bono Program page at
https://www.cobar.or2/For-Members/Committees/Aopellate-Pro-Bono

APPENDIX 2
Denial of Certiorari by the
Colorado Supreme Court

25

Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203

DATE FILED: November 2, 2020
CASE NUMBER: 2020SC676

Certiorari to the Court of Appeals, 2018CA65
District Court, City and County of Denver, 2016CR3685
Petitioner:
Supreme Court Case No:
2020SC676

Brandon Lamar Tademy,
v.

Respondent:
The People of the State of Colorado.
ORDER OF COURT
Upon consideration of the Petition for Writ of Certiorari to the Colorado
Court of Appeals and after review of the record, briefs, and the judgment of said
Court of Appeals,
IT IS ORDERED that said Petition for Writ of Certiorari shall be, and the
same hereby is, DENIED.

BY THE COURT, EN BANC, NOVEMBER 2, 2020.
CHIEF JUSTICE COATS does not participate.

DATE FILED: November 6, 2020
CASE NUMBER: 2018CA65

Colorado Court of Appeals
2 East 14th Avenue
Denver. CO 80203
Denver District Court
2016CR3685
Plaintiff-Appellee:

Court of Appeals Case
Number:
-2018CA6S— —

The People of the State of Colorado,
v.
Defendant-Appellant:
Brandon L Tademy.
MANDATE

This proceeding was presented to this Court on the record on appeal. In
accordance with its announced opinion, the Court of Appeals hereby ORDERS:
JUDGMENT AFFIRMED
<*•

POLLY BROCK
CLERK OF THE COURT OF APPEALS

DATE: NOVEMBER 6, 2020

